OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/DOMINICAN
REPUBLIC’S RURAL
ECONOMIC
DIVERSIFICATION PROJECT
AUDIT REPORT NO. 1-517-10-005-P
MARCH 16, 2010




SAN SALVADOR, EL SALVADOR
    Office of Inspector General


    March 16, 2010

    MEMORANDUM

    TO:             USAID/Dominican Republic Mission Director, Richard Goughnour

    FROM:           Acting Regional Inspector General/San Salvador, Ismail Kenessy /s/

    SUBJECT:        Audit of USAID/Dominican Republic Rural Economic Diversification
                    Project (Audit Report No. 1-517-10-005-P)

    This memorandum transmits our final report on the subject audit. We have carefully
    considered your comments on the draft report in finalizing the audit report and have
    included your response in appendix II of the report.

    The report contains four recommendations intended to improve effectiveness and
    implementation of USAID/Dominican Republic’s Rural Economic Diversification Project.
    Management decisions have been reached for Recommendation Nos. 1 and 2.
    M/CFO/APC will record final action on these recommendations when planned actions
    have been completed.

    Management decision on Recommendation Nos. 3 and 4 can be reached once
    USAID/Dominican Republic develops, in conjunction with the lender and implementing
    partner, a system to review proposed guaranteed loans to ensure that the loans support
    cluster development and long-term capital investments. Please advise my office within
    30 days of any further actions planned or taken to reach management decisions on
    these recommendations.

    I want to express my appreciation for the cooperation and courtesy extended to my staff
    during the audit.




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena
Antiguo Cuscatlan, Depto. La Libertad
San Salvador, El Salvador
Tel. (503) 2501-2999—Fax (503) 2228-5459
www.usaid.gov/oig
CONTENTS
Summary of Results ................................................................................................... 1

Background ................................................................................................................. 3

Is USAID/Dominican Republic’s Rural Economic
Diversification project achieving its main goals?........................................................... 4

Audit Findings ............................................................................................................. 5

Is USAID/Dominican Republic’s Rural Economic
Diversification project achieving its main goals?........................................................... 5

          USAID/DR Should Increase the Focus on Value
          Chain Cluster Development .............................................................................. 7

          USAID/RED’s Loan Program
          Should More Effectively Support
          Project Objectives ............................................................................................. 9

Evaluation of Management Comments ................................................................... 12

Appendix I – Scope and Methodology .................................................................... 13

Appendix II – Management Comments ................................................................... 15
SUMMARY OF RESULTS
The Central American-Dominican Republic-United States Free Trade Agreement
(CAFTA-DR) first entered into force between the United States and the Dominican
Republic on March 1, 2007.            This agreement offers Dominican farmers both
opportunities for exports and challenges from imports, as countries participating in this
free trade agreement are to eliminate tariffs. To support the Dominican Republic’s
transition to more open agricultural markets, on February 1, 2008, USAID/Dominican
Republic (USAID/DR) signed an $11.7 million, 3-year contract with Abt Associates to
implement the USAID Rural Economic Diversification (USAID/RED) project. The
contract also provides for two option years for an additional estimated cost of $7.5
million. The main goal of the project is to help create and strengthen viable, sustainable
agricultural clusters (groups of agricultural producers, processors, buyers, and suppliers
who work in close geographic proximity to one another). As of October 30, 2009, the
mission had obligated $7.9 million and had expended $5.76 million under this contract
(page 3).

The audit concluded that the USAID/RED project is providing considerable assistance to
the Dominican Republic’s agricultural sector. However, the project has achieved only
limited progress toward its main goal: the development of sustainable agricultural
clusters. According to the contact, the clusters were to focus on nontraditional
agricultural products. To improve the likelihood of project success, USAID/DR needs to (1)
refocus project funds and resources toward achieving the main goal of creating and
strengthening viable economic clusters, (2) develop more effective performance
measures, and (3) refine and expand the credit program to better support program goals
(page 5).

As of November 2009, the USAID/RED project has identified only 9 out of the 15
anticipated clusters that were to achieve 30 percent increases in annual sales.
Furthermore, the project has no effective method to evaluate the progress or success of
various groups, such as increased sales and profits, and no specific plans to address the
sustainability of individual clusters. For example, while the contractor reports that all of the
agricultural clusters and productive groups it has assisted are “successful,” the contractor
has no criteria for defining or evaluating success. Moreover, specific progress toward the 30
percent increased sales goal has not been tracked or submitted, and the contractor has not
developed plans to evaluate the sustainability of individual clusters (page 5).

The audit further identified that the USAID/RED project provides extensive assistance to
areas unrelated to clusters or agricultural diversification. For example, of the $2 million
in grants approved by the project, only 10 percent of the grant program funds were
devoted to the 9 value chain clusters, with the remaining 90 percent devoted to
producers outside of the clusters as of September 30, 2009. These outside producers
focused on nontraditional agricultural products (page 6).

Furthermore, the project’s efforts to improve access to credit are not fully supporting the
program goals. More than half of the loaned value has supported traditional protected
crops like rice; this support works against the program’s diversification goals as it offsets
the loans provided to growers of diversified products. Also, while the credit program was
targeted for infrastructure improvements, most loans have been for terms of 12 or fewer


                                                                                              1
months and therefore have been used to finance short-term operational needs. Producers
indicated that short term loans would not allow them to invest in infrastructure to improve
production, quality, and profitability (page 6).

The report contains the following four recommendations to address these project areas:

   develop a plan to appropriately focus contractor efforts and resources on the original
    goal of cluster development (page 9).

   prepare and approve new performance indicators that are more likely to determine
    the progress achieved by specific clusters assisted by the project and the
    sustainability of the clusters (page 9).

   develop, in conjunction with its implementing partner and the Development Credit
    Authority lender, a system to allow the mission to review proposed guaranteed loans
    to ensure that these loans are limited to diversified products supported by the project
    (page 10).

   develop, in conjunction with its implementing partner and the Development Credit
    Authority lender, a system to allow the mission to review proposed guaranteed loans
    to ensure that these loans have longer maturities and primarily support capital
    investment (page 11).

USAID/Dominican Republic agreed to implement and has developed specific plans to
address the first two recommendations. The audit team determined that management
decisions have been reached on these two recommendations. Management decisions can
be reached on the remaining two recommendations when the mission develops a review
system to determine if loans are targeted for the diversified products supported by the
USAID/RED project, and if they are focusing on longer term capital investments. An
evaluation of management comments is provided in the Evaluation of Management
Comments section of this report (page 12), and USAID/Dominican Republic’s comments in
their entirety are included in appendix II.




                                                                                         2
BACKGROUND
The Central American-Dominican Republic-United States Free Trade Agreement
(CAFTA-DR) 1 first entered into force between the United States and the Dominican
Republic on March 1, 2007. It offers Dominican farmers the opportunity to sell their
commodities free of import tariffs in the United States and in Central American countries
participating in this free trade agreement, provided that they maintain competitive prices
and comply with the importing country’s food safety and certain sanitary requirements.
However, the agreement will also entail challenges to farmers of protected crops, which
will eventually have to compete freely with producers from the United States and Central
American countries. Protectionist practices in the Dominican Republic have caused
strong economic distortions leading to inefficiencies in agricultural production.
Protection and subsidies have made rice, beans, onions, and dairy the most vulnerable
and least competitive products.

To support the Dominican Republic’s involvement in CAFTA-DR, on February 1, 2008,
USAID/Dominican Republic (USAID/DR) signed an $11.7 million, 3-year contract with
Abt Associates to implement the USAID Rural Economic Diversification (USAID/RED)
project. The contract also provides for two option years for an additional estimated cost
of $7.5 million. The project is designed to help the Dominican Republic take advantage
of the new export opportunities provided by the elimination of tariffs.

The main goal of the project is to help create and strengthen viable, sustainable
agricultural clusters. According to the contract, clusters are groups of agricultural
producers, processors, buyers, and suppliers who work in close geographic proximity to
one another—along with local/community leadership—to promote the production and
marketing of a specific product while using environmentally sound practices. According
to the contract with Abt Associates, specific goals of the 3-year project include:

   strengthening at least 15 nontraditional export commodity chains into viable agro-
    industries linked to markets, while the average value of related product sales should
    increase by 30 percent annually;

   reaching agreements with two financial institutions to develop financial products for
    competitive agricultural clusters, leading to at least 500 beneficiaries being provided
    credit for cluster-related activities;

   exceeding a 5,000-hectare target of new areas under improved natural resources
    management for agricultural and wood sustainable products;

   leveraging at least $5 million of non-USG resources (alliance with the private sector) to
    further the objectives in support of contract results; and

1
 CAFTA-DR includes seven signatories: the United States, Costa Rica, Dominican Republic, El
Salvador, Guatemala, Honduras, and Nicaragua. The U.S. Congress approved the CAFTA-DR in
July 2005 and the President signed the implementation legislation on August 2, 2005. The United
States has implemented CAFTA-DR on a rolling basis as countries make sufficient progress to
complete their commitments under the agreement. The agreement is now fully in force with all
seven signatories.


                                                                                             3
   disbursing $1 million per year for grants that will support all the project’s technical tasks.

As of October 30, 2009, the mission had obligated $7.9 million and had expended $5.76
million under this contract.


AUDIT OBJECTIVE
As part of the fiscal year 2010 audit plan, the Regional Inspector General/San Salvador
audited USAID/Dominican Republic’s Rural Economic Diversification Project to answer
the following question:

   Is USAID/Dominican Republic’s Rural Economic Diversification Project achieving its
    main goals?

The audit’s scope and methodology are described in appendix I.




                                                                                                4
AUDIT FINDINGS
Is USAID/Dominican Republic’s Rural Economic Diversification
project achieving its main goals?
While the USAID/Dominican Republic’s Rural Economic Diversification (USAID/RED)
project is providing considerable assistance to the Dominican Republic’s agricultural
sector, the project has achieved only limited progress toward its main goal: the
development of sustainable economic clusters made up of competitive and profitable
producers, processors, buyers, and suppliers of nontraditional agricultural products.

The USAID/RED project is providing substantial assistance to clusters, producer groups,
and other parts of the agriculture sector. This assistance includes increased access to
credit, the establishment of a private sector alliance, the strengthening of nontraditional
export clusters, and the provision of financial support through grants. Specific
accomplishments of the program include:

   The USAID/RED project has identified and begun strengthening nine clusters that fit
    the contractual definition of nontraditional export commodity chains that the
    USAID/RED project hopes to strengthen into viable agro-industries linked to markets.
    Targeted clusters focus on such products as mangos, bananas, pineapples, and
    yucca/cassava.

   USAID/RED has successfully obtained an agreement from a domestic financial
    institution operating under a Development Credit Authority (DCA) guarantee to provide
    credit to agricultural producers. This institution has issued 1,623 loans in the amount of
    $4.5 million as of September 30, 2009.

   USAID/RED has leveraged about $2.8 million of local resources to further the
    objectives of the contract. This sum includes contributions from grantees. In addition to
    this, a public private partnership agreement has been signed with a private U.S. food
    distributor that will provide about $53,000 of non-USG resources, with two more
    agreements in negotiations.

   About $2 million in grants have been disbursed to support the project’s technical
    tasks. For example, grant money helped a group of coffee producers purchase new
    equipment that helped them improve their coffee production and in turn the quality of
    the coffee. This led to the producers finding buyers in Japan to purchase their
    improved coffee. In another case, a group of yucca growers was able to purchase a
    pump that improved the group’s irrigation system.

However, despite the achievement made by the project and assistance provided thus far,
there is limited evidence that the project will meet many of the specific goals stated in the
contract. Specific concerns include the following:

   As of November 2009, the USAID/RED project has identified only 9 of the proposed 15
    economic clusters. These identified groups vary significantly in their level of
    development, and it is not clear which clusters are becoming more viable and


                                                                                            5
    sustainable. The USAID/RED project has no effective method to evaluate the progress
    or success of various groups, such as increased sales and profits, and no specific plans
    to address the sustainability of individual clusters.

   While the USAID/RED contract anticipated the development of 50 higher value
    products and services to support economic diversification, the contractor has
    identified only 4 such products so far.

   While the contract anticipated that all 15 clusters would have members with product
    certifications (such as certified organic) to enhance marketability, as of September 30,
    2009, members of only 2 clusters had received such certifications

   While the contract anticipated that 50 documented agreements will be in place
    between producers and large agricultural firms (including exporters and foreign
    importers) for business-to-business services, only 4 such agreements have so far
    been reported.

   Although the contract’s grant program was expected to support all of the project’s
    technical tasks, as of November 2009, the nine identified clusters had received little of
    the project’s grant money. As of September 30, 2009, about 90 percent of the grant
    money had been distributed to agricultural producers outside the clusters.

   Progress toward natural resource management targets could not be confirmed. While
    project indicator data indicates that hectares under improved natural resources
    management reached 213 percent of the fiscal year (FY) 2009 target, the contractor was
    unable to provide verifiable data to confirm this result.

   The improved access to credit is not fully supporting the program goals. More than half
    of the loaned value has supported traditional protected crops such as rice. This trend
    works against the program’s diversification goals as it offsets the loans provided to
    growers of diversified products.

   Given that the improved access to credit is linked to the overall development of clusters,
    most loans should be for capital investments that can impact production or profitability.
    Loans of this nature require a longer period of maturity. However, most loans have been
    given to finance short-term operational needs and have been for 12 or fewer months.
    Producers interviewed indicated that short term loans would not allow them to improve
    production, quality, or profitability.

To increase the likelihood of project success, USAID/Dominican Republic (USAID/DR)
needs to take the following steps: (1) refocus project funds and resources toward achieving
the main goal of creating and strengthening viable economic clusters, (2) develop more
effective performance measures, and (3) refine and expand the credit program to better
support program goals. Specific audit findings and recommendations are stated below.




                                                                                            6
USAID/Dominican Republic
Should Increase the Focus on
Value Chain Cluster Development

 Summary. According to the USAID/RED contract, the project’s main goal is to help
 create and strengthen at least 15 nontraditional export commodity chains that can
 become viable agro-industries. Automated Directives System (ADS) 203.3.4 states
 that performance indicators are used to observe progress and measure actual results
 against expected results. While the project is providing significant support to the
 agricultural sector, there is limited evidence of significant progress toward the project's
 overall objectives. For the nine clusters identified so far, USAID/DR has not tracked
 progress or developed plans to ensure sustainability. Furthermore, significant
 resources are expended on groups outside the clusters and for agricultural groups
 unrelated to the diversification goals. This situation occurred because USAID/DR did
 not closely track contractor compliance with contract provisions and did not ensure
 that indicators were developed in accordance with ADS requirements. Without
 improved focus and reporting, there is increased risk that the program’s main goals
 will not be achieved.

According to the USAID/RED contract, an important expected result is that at least 15
nontraditional export commodity chains are strengthened into viable agro-industries linked to
markets, with the average value of product sales increasing by 30 percent annually. In
addition, the contract states that the project’s main goal is to help create and strengthen
clusters made up of competitive, profitable, commercially oriented agribusiness value
chains. Automated Directive System (ADS) 203.3.4 indicates that performance indicators
are used to observe progress and to measure actual results compared with expected
results. To be effective, indicators should allow missions to systematically monitor the
achievements of program operations; collect and analyze performance information to
track progress toward planned results; use performance information and evaluations to
influence decision-making and resource allocation; and communicate results achieved.

While the USAID/RED project is providing significant support to various clusters,
producer groups, and other agricultural sector entities, there is limited evidence of
significant progress toward the project's overall objectives. As of November 1, 2009, the
project has identified nine clusters that meet the contractual definition of nontraditional
export commodity chains, and the contractor is working with these groups to develop into
viable agro-industries linked to markets. However, evidence of specific progress towards
the development of profitable and sustainable clusters is lacking because of the following
conditions:

USAID/DR has not received relevant and reliable data regarding the progress of
clusters - Effective performance indicators allow missions to systematically monitor the
achievements of program operations; collect and analyze performance information to
track progress toward planned results; use performance information and evaluations to
influence decision-making and resource allocation; and communicate results achieved.
However, the indicators developed by the contractor do not always clearly reflect the
progress of each value chain cluster to allow the assessment of progress made towards
the main goal of the project. Specifically:



                                                                                           7
      While the contractor maintains a performance indicator and reports on the
       “number of successful agricultural clusters or productive groups in operation”, the
       contractor has no criteria for defining or evaluating the success of individual
       clusters or groups. As of September 30, 2009, all groups receiving assistance
       were reported as successful, although USAID and contractor officials agreed this
       did not mean all had achieved the intended goal of becoming a cluster made up
       of a competitive, profitable, commercially oriented agribusiness value chain.
       Specific progress toward the 30 percent increased sales goal has also not been
       tracked or submitted as of yet, as it is not a specific indicator being tracked.

      Some performance indicators include targets and results aggregated from all
       groups aided by the project (value chain clusters, productive groups, and other
       producers), making it difficult to track progress toward the project objective of 15
       functioning clusters. For example, the performance indicator for quality
       certifications counts individual farmers who were certified, and shows that the
       project achieved 270 percent of its target. However, the contract states that
       members from all 15 clusters would receive certifications; so far, members from
       only 2 of 15 planned clusters (13 percent) have received certifications.

      There are no indicators showing progress toward sustainability, such as
       increased cluster membership, participation rates, increased income or profit
       among growers, the ability to finance or support group operations that could
       help one to determine the progress of clusters assisted to date.

      The contractor was unable to fully document reported progress in the
       environmental area. While the project indicator data show that hectares
       under improved natural resources management reached 213 percent of the
       FY 2009 target, the audit team was unable to verify this result from the data
       available by the contractor.

The contractor has not developed plans for cluster sustainability - While the
sustainability of the value chain clusters is identified as a key implementation element,
the contractor has taken few clear steps to identify needed work. In the contractor’s
work plan for FY 2009, the only identified work relates to monthly meetings to discuss
sustainability. While the contractor is responsible for developing a Sustainability Report
focused primarily on mechanisms for transitioning assistance efforts from USAID/RED to
a local institution; it does not address the specific status or needs of the existing clusters,
or the work needed to ensure group sustainability.

The USAID/RED project provides extensive assistance to areas unrelated to
clusters or diversification - In addition to the 9 clusters that can develop into the
intended value chain clusters, the project has expanded its efforts to include support for
9 producer groups, and 22 other recipients receiving grants. According to project
officials, the 9 producer groups are not likely to develop into value chain clusters, while
the 22 smaller groups receiving only grants are even less likely to do so. Thus, many
resources are devoted to these groups, and while this assistance is worthwhile in
general, it is not contributing to the original main goal of developing value chain clusters.
For example, only 10 percent of the grant program funds were devoted to the value
chain clusters, 9 percent to the producer groups, with the smaller producers receiving 81
percent of the grants as of September 30, 2009. In some instances project resources



                                                                                              8
are being applied to producer groups of traditional products such as pork and dairy;
support for these sectors is unrelated to the goals of diversification and cluster
development.

These problems occurred because USAID/DR failed to develop appropriate performance
indicators in accordance with ADS requirements. Furthermore, the mission did not
provide sufficient technical guidance and direction to ensure that the contractor retained
its primary focus on diversification, cluster development, and the sustainability of
individual clusters.

Unless the USAID/RED project focuses sufficient resources on the contract’s main goal
of strengthening diversification through cluster development as originally envisioned by
the contract, there is an increased risk that the overall goals of the project will not be
achieved. Without appropriate performance indicators directly tracking the progress
towards the main goal of the project, USAID/DR management cannot use performance
information and evaluations to influence decision-making and effectively communicate
results achieved. To ensure that the mission provides appropriate attention to the
identified problems, we are making the following recommendations:

   Recommendation 1. We recommend that USAID/Dominican Republic, in
   conjunction with the Rural Economic Diversification project contractor, develop a
   written implementation plan to appropriately focus contractor efforts and
   resources on the original goal of cluster development.

   Recommendation 2. We recommend that USAID/Dominican Republic prepare
   and approve new written performance indicators that are more likely to determine
   the progress achieved by specific clusters assisted by the project and the
   sustainability of the clusters.



USAID/RED’s Loan Program
Should More Effectively Support
Project Objectives

 Summary.        According to the USAID/RED contract, the project should support
 agricultural diversification by improving access to credit by members of the various
 supported agricultural clusters. However, according to documents from the financial
 institution providing loans, more than half of the loans were received by producers of
 traditional protected crops such as beans and rice. Furthermore, because of the short
 duration of the loans offered, most of the loans have financed short term operational
 needs instead of long-term investments in needed infrastructure and facilities. This
 occurred because the agreement between USAID/DR and the lending institution did not
 contain specific language limiting the type and duration of loans in a way that would best
 support the project’s objectives. As a result, the credit program does not fully support,
 and may in some cases actually work against, the investment and diversification goals of
 the USAID/RED project.

According to the USAID/RED contract, the project would support agricultural diversification
by improving access to credit by members of the various supported agricultural clusters.


                                                                                          9
Specifically, the project would identify lenders to implement a Development Credit Authority
(DCA) guarantee program to finance the infrastructure and facilities required to improve
cluster competitiveness and expand cluster output. Under this program, USAID’s DCA
program provides partial loan guarantees to financial institutions to encourage loans to small
farmers and other entrepreneurs, loans that have traditionally carried higher risks.
According to the contract, improved access to credit is to be achieved by assisting at least
two financial institutions to develop financial products aimed at competitive agricultural
clusters by the end of the 3-year project.

In September 2008, the project entered into an agreement with one financial institution
operating with a DCA guarantee program to provide loans to agriculture producers. As of
September 2009, the lender had completed about $4.5 million in loans. However, according
to documents obtained from the primary lender, and from discussions with the contractor
and USAID officials, more than 50 percent of the loans given under the DCA guarantee
have not gone to diversified agriculture producers. They have instead gone to producers of
traditional, protected crops such as rice, beans, and onions—crops that currently benefit
from government subsidies and tariffs. In addition, most loans issued have been to finance
short term operational needs and have been made for terms of 12 or fewer months.
According to beneficiaries and officials from USAID/DR, the contractor, and the Government
of Dominican Republic, financial products of 3 to 5 years for capital investments are needed
to achieve impact.

The lender is making these types of loans because, under the current financing agreement
with USAID, they can make short-term loans with a 12-month minimum duration. The
lender prefers to make short-term loans to producers of traditional crops because such loans
traditionally have been seen as less risky. However, the purpose of the loan program is to
reduce the risk of lending to producers of non-traditional crops, and to support long-term
investment in infrastructure to support diversification.

The credit program does not fully support these goals at this time. Unless the lending
policies are changed, the loans provided to traditional producers may further entrench these
traditional crops and make it harder to diversify agriculture producers in the country as a
whole. If a new agreement with the lender limits loans to only those farmers committed to
diversification and only for capital investments, the amount and number of loans may lessen,
but all of the loans will then go towards achieving the goal of diversification and cluster
development of the project.

According to USAID/DR, the current credit program agreement requires the lender to use
at least half of its DCA-covered loans to underwrite the diversified products supported by
the USAID/RED Project. Furthermore, USAID/DR stated that it would insist that the
lender focus in the future on the longer-term capital investment needs of cluster
participants. However, because the lending program has so far failed to achieve these
goals, the mission should develop a more active system for monitoring of lending
activity. To ensure that a monitoring mechanism is in place to facilitate the project goals,
we are making the following recommendations:

   Recommendation 3. We recommend that USAID/Dominican Republic develop,
   in conjunction with its implementing partner and the Development Credit
   Authority lender, a system to allow the mission to review proposed guaranteed
   loans to ensure that these loans are limited to diversified products supported by
   the project.


                                                                                           10
Recommendation 4. We recommend that USAID/Dominican Republic develop,
in conjunction with its implementing partner and the Development Credit
Authority lender, a system to allow the mission to review proposed guaranteed
loans to ensure that these loans have longer maturities and primarily support
capital investment.




                                                                                11
EVALUATION OF
MANAGEMENT COMMENTS
In response to our draft report, USAID/Dominican Republic agreed to implement and has
developed specific plans to address Recommendations 1 and 2. With regard to
Recommendation 1, the mission stated that they expect to have a plan to focus
contractor efforts and resources on cluster development in place by the end of March
2010. As to Recommendation No. 2, the mission indicated by April 20, 2010, they would
put in place a revised set of project performance indicators, including indicators
specifically related to cluster group success. Based on the mission’s actions taken, a
management decision has been reached on Recommendations 1 and 2.

In response to Recommendations 3 and 4, the mission stated that amending the
Development Credit Authority (DCA) program is not advisable. The mission further
explained that the current DCA contract allows for USAID/Dominican Republic to insist
that the remaining loans be targeted towards diversified products supported by the
USAID/RED project. The contract also allows for the remaining loans to be focused on
longer-term capital investments needs. In response to these comments, the report
recommendations have been adjusted. Rather than proposing a contract amendment,
the recommendations now require the mission work with the lender and implementing
partner to develop a review system of proposed guaranteed loans. The review system
will allow the mission to determine if loans are indeed going to diversified products
supported by the USAID/RED project, and if the loans focus on longer-term capital
investments needs. The audit team requested that the mission provide within 30 days
information regarding actions planned or taken to reach management decisions on these
revised recommendations

Mission comments in their entirety are presented in appendix II.




                                                                                   12
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/San Salvador conducted this performance audit in
accordance with generally accepted Government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. The purpose of the audit was to
determine if USAID/Dominican Republic’s Rural Economic Diversification (USAID/RED)
project is achieving its main goals. Audit fieldwork was conducted at USAID/Dominican
Republic (USAID/DR) and contractor’s offices in Santo Domingo from November 2 to 20,
2009 and included site visits to beneficiaries in Bani, Santiago, Dajabon, and Moncion.
The audit covered the period from February 1, 2008, through November 20, 2009.

In planning and performing this audit, we assessed the mission’s controls related to its
USAID/RED activities. The management controls identified included the mission
performance management plan, program progress reports, USAID/DR’s strategy
documents, and the mission’s fiscal years (FY) 2008 and 2009 self-assessment of
management controls as required by the Federal Managers’ Financial Integrity Act of
1982. 2

The audit was conducted at USAID/DR and contractor’s offices in Santo Domingo. Our
audit primarily focused on the achievement of main goals under the USAID/RED project
and the associated indicators for FY 2009. We reviewed the eight tasks under the
contract as well as the grant portion. We judgmentally selected five producer groups and
one local partner, and reviewed associated indicators under each task from the
monitoring and evaluation plan to determine the results achieved. Our analysis and
conclusions are restricted to the controls in place at locations visited during the audit.

Methodology
To determine whether the USAID/RED project is achieving its main goals, the audit team
first met with and interviewed USAID/DR staff in the mission’s Office of Economic
Growth to gain an understanding of the program history and status. The audit team
reviewed relevant documentation such as the contract, contract amendments,
semiannual progress reports, field trip reports, and mission operating plans. The audit
reviewed the work accomplished as reported in the contractors’ reports and compared
actual accomplishments to the specific outputs as defined in the contract and approved
work plans.     This comparison entailed examining supporting records, including
documented deliverables and the contractor’s progress reports, for evidence that the
project had achieved its intended results.

To assess the mission’s compliance with requirements to document program
performance, we tested a judgmental sample of outputs based on program maturity,
accessibility, and total dollars committed in grants, under each major task and verified
2
    Public Law 97-255, as codified in 31 U.S.C. 1105, 1113, and 3512.


                                                                                       13
                                                                            APPENDIX I


reported progress related to these outputs during site visits and interviews with the
contractor staff, local officials, and beneficiaries. Based on the collective results, we
determined the progress of each major task toward the achievement of the main goals
stated in the contract documents.

In addition, we reviewed applicable policies, procedures and management controls
related to the management for results, including Automated Directives System chapters
202 and 203.      We evaluated the mission’s compliance with relevant program
management controls and policies.

In assessing the accuracy of reported results, we established a materiality threshold of
95 percent. If the reported results could be verified and if the difference between
reported and documented results was less than 5 percent, the reported results were
judged to be accurate.




                                                                                      14
                                                                              APPENDIX II



MANAGEMENT COMMENTS
                                                MEMORANDUM

To:              Jon Chasson, RIG/San Salvador
From:            Richard Goughnour, Mission Director, USAID/Dominican Republic
Date:             February 26, 2009
Subject:         Management Decisions for Recommendations Contained in Report No.
                 1-517-    10-00X-P: Audit of USAID/Dominican Republic’s Rural
                 Economic Diversification Project

On January 25, 2010, RIG/San Salvador issued its draft report on its audit of
USAID/Dominican Republic’s Rural Economic Diversification (RED) Project and asked
the Mission’s for its review and comments on it. The draft audit report contains four
recommendations, listed below, which the Mission wishes to respond to in the following
manner:

Recommendation 1:               “We recommend that USAID/Dominican Republic
develop a written plan to appropriately focus contractor efforts and resources on the
original goal of cluster development.”

We fully agree with this recommendation that the Mission, together with the
USAID/RED Contractor, develop a written plan to focus appropriately contractor
efforts and resources on the original goal of cluster development. Using the
definition of rural economic product clusters as defined below in the Dominican Republic,
the Mission expects to have an appropriate plan written and agreed upon by both parties
by the end of March 2010.
 A rural economic product “cluster” is “…a critical mass of agricultural or wood
producers, processors, buyers, and public and private input suppliers and service
providers [i.e., the value chain for a particular product or group of similar products] with
the following characteristics:
1. Local/community leadership involvement to promote the production and
marketing of a specific agricultural or wood commodity or group of similar
commodities (e.g., oriental vegetables) with high growth potential based on
high quality products and competitive market prices;
2. Producers, processors, buyers and input suppliers who work in close
geographical proximity to one another; and
3. Use environmentally sound production and processing practices.”


Recommendation 2:                “We recommend that USAID/Dominican Republic
prepare and approve new written performance indicators that are more likely to
determine the progress achieved by specific clusters assisted by the project and the
sustainability of the clusters.”
USAID/DR agrees with and welcomes this recommendation. We will put in place by
April 30, 2010 a revised set of project performance indicators that will include indicators
related to cluster group success, including increased sales and sustainability. Along with
other appropriate indicators, we will develop assessment instruments and a methodology to


                                                                                         15
improve the collection and processing of the data needed to assess cluster sustainability.

Recommendation 3: “We recommend that USAID/Dominican Republic amend
the Development Credit Authority [DCA] guarantee program with its current and
future collaborating financial institutions to limit the use of the guarantee for only
diversified products.”

USAID/DR believes that this recommendation is not advisable at this time because
we think that the current DCA contract with ADEMI Bank is acceptable, but to date
has not been implemented by ADEMI Bank as agreed upon. The carefully negotiated
contract between USAID/DR and ADEMI Bank, which was approved by the USAID/DCA
Office, actually requires the bank to have at least 50% of its DCA-covered loans to go to
those diversified products supported by the USAID/RED Project. Moreover, we wish to
point out that one of the primary goals of this DCA loan guarantee program, in addition
to persuade ADEMI Bank to lend to small firms in the rural sector in general, is to have a
demonstration effect for other private Dominican banks to see that lending to these small
rural businesses can be profitable. The fact that several other banks have now
approached the Mission and the USAID/RED Project expressing an interest in the DCA
loan guarantee program for lending to small rural businesses indicates that the
demonstration effect is working.

Therefore, we consider that there is no need for a contract modification at this time;
however, there is the need to enforce the current one. The Mission will continue to insist
that ADEMI Bank has to comply with its current contractual obligations, which implies
that the remaining loans covered by the DCA loan guarantee have to go to the
diversified products supported by the USAID/RED Project. If the Mission sees by April
30, 2010 that ADEMI Bank is not able to comply with its contractual obligations, the
Mission will terminate the USAID/DCA contract with ADEMI Bank and any future lending
by ADEMI Bank will not be covered by the USAID/RED Project’s DCA loan guarantee
program.

All additional collaborating financial institutions receiving a USAID/DCA loan guarantee
program in the future will be required to use their USAID/DCA-loan guarantees for only
those diversified agricultural or wood products supported by the USAID/RED Project. In
this sense, the USAID/RED Project defines product diversification to include both
horizontal diversification, which is the change in crop production from a traditional
Dominican politically sensitive commodity (e.g., rice, beans, onions, garlic) to another
that is primarily a non-traditional Dominican export commodity (e.g., fruits and
vegetables), and vertical diversification, which is the improvement in quality or value-
added to a specific Dominican agricultural or wood product.

Recommendation 4: “We recommend that USAID/Dominican Republic amend
the agreement with the current and future financial institutions to limit the use of the
Development Credit Authority guarantee for only capital investment uses and longer
maturity products.”

Please see our response to Recommendation 3 above which also covers our
response to Recommendation 4. That is, we think that a contract modification to the
USAID/DCA contract with ADEMI Bank (the only financial institution that currently has a
DCA loan guarantee program under the USAID/RED project) is not necessary at this


                                                                                             16
time because we are insisting that ADEMI Bank complies with its present contract to use
the remaining DCA-covered loans to finance the USAID/RED Project-supported cluster
activities, especially their longer-term capital investment needs. In addition, all additional
financial institutions agreeing to the USAID/RED Project’s DCA loan guarantee program
in the future will be required to lend only to clusters supported by the USAID/RED
Project, and those loans should be used primarily for capital investment loans for more
than a year that promote cluster development and rural economic diversification.




                                                                                           17
U.S. Agency for International Development
        Office of Inspector General
       1300 Pennsylvania Ave., NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
